\h

-V

No.

ORIGINAL

01 -SS44
IN THE
SUPREME COURT OF THE UNITED STATES

THOMAS CHARLES SCOTT,
(Your Name)
vs.

w mONER

Willlli®1

STEWART, SHERMAN, et al. , — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

filed
AUG 25 2021

California Court of Appeal, Third Appellate District
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Thomas Charles Scott
(Your Name)
Valley State Prison, 21633 Avenue 24
(Address)
Chowchilla, CA 93610
(City, State, Zip Code)

NONE
(Phone Number)

y

QUESTION(S) PRESENTED

Were petitioner's rights under the Fourth and Sixth Amendments to the
United States Constitution violated b(l trial counsel's failure to
challenge the validity of a search warrant obtained via the intentional
or reckless omission of a material fact, that was known to the affiant
at the time, and would have invalidated the statements of probable
cause made in the affidavit supporting the warrant?

Is it not the trial court judge's duty under the United States
Constitution's Fourteenth Amendment Due Process Clause to require the
prosecution to prove every element of the offense being tried, and to
give the jur(l a required instruction, sua sponte, concerning the
meaning of a material element necessary to convict?

Should a convicted indigent person forever have to suffer the adverse
penalties caused by his or her state-appointed trial counsel's failure
during trial, and his or her appellate counsel's failure to raise
meritorious paramount issues during that person's first appeal as of
right; and due to the failures of counsel, should that convicted person
be barred from raising the omitted issues via a postconviction relief
proceeding?

(Such as a petition for writ of habeas corpus.)

\

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
W AH parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
1) Stewart Sherman, Warden
2) Jennifer Mary Poe, Esquire, California^Attorney General,
Respondent.

RELATED CASES

None

>

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

8

CONCLUSION

27

INDEX TO APPENDICES

APPENDIX A: Decision of United States Court of Appeals.
APPENDIX B : Decision of United States District Court, and:
Magistrate.Judge!s Findings and Recommendations.
APPENDIX C : United States Court of Appeals Denial;for Rehearing.
APPENDIX D; Decision of California Court of Appeal.
APPENDIX E: Decision of Tehama County Superior Court.
APPENDIX F: Decision of California Supreme Court.
APPENDIX G: Order By United States Supreme Court regarding
Extention of Time to file Writ of Certiorari.
APPENDIX H: Trial Court Reporter's Transcript, pp. 431-439, 654.
APPENDIX I: Petitioner's doctor's recommendation for marijuana.APPENDIX J: California Department of Justice "GiHd^ljnes For
Security And Non-Diversion Of Marijuana Grown For
Medical Use."

./

INDIX TO APPENDICES (Continued)
APPENDIX K: Affidavit of Probable Cause used to procure search
warrant in the instant case.
APPENDIX L: Letter from Petitioner's Appellate Counsel dated
May 18, 2013.
TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Cuyler v. Sullivan (1980) 466 U.S. 335............

• •

. . 25

Douglas v. California (1963) 372 U.S. 353....

25

Evitts v« Lucey (1985) 469 U.S. 387..................

25

Franks v. Delaware (1978) 438 U.S. 154............
Harrington v. Richter (2011) 562 U.S. 86........

•

0

• *

...11

« •

... 15

Kimmelman v. Morrison (1986) 477 U.S. 365....
MeMann v. Richardson (1970) 397 U.S. 759.....

. . . 12

Osborne v. Ohio (1990) 495 U.S. 103........ ..........
Padilla

. .. 25

• 4

.. 14, 22, 25

(2010) 130 S. Ct. 1473................

25 ‘

People v. Mahoney (2013) 220 Cal. App. 4th 781

21

People v. Petrovic (2014) 224 Cal. App. 4th 1510..
Strickland v. Washington (1984) 466 U.S. 668........

. . . 20
I »

15, 25

Tecklenburg v. Appellate Division , 169 Cal. App. 4th 1402-. 20, 21
United States v. Flyer, 633 F. 3d 911 (9th C-ir. 2011)........... . . . 21
United States v. Kuchinski (2006) 469 F. 3d 853..................... 20, 21
Yarborough v. Gentry (2003) 540 U.S. 1

25

STATUTES AND RULES
28 U.S.C. § 2254............................................

. 17

California Health & Safety Code § 11357

20

California Health & Safety Code § 11358

20

TABLE OF AUTHORITIES CITED (Continued)
STATUTES AND RULES

PAGE NUMBER

California Health & Safety Code § 11359....

20

California Health & Safety Code § 11362.775

9, 10, 19

California Health & Safety Code § 11366....

20

California Penal Code § 311(e); Stats 1969, Ch. 249, § 1. ..13, 22
California Penal Code §311.11

<s

, 13, 16, 21, 22

OTHER
CALCRIM 1145

13

California Department of Justice "Guidelines For The Security
And Non-Diversion Of Marijuana Grown For Medical Use". 9, 10, 19
//

//

>

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
JXI For cases from federal courts:

,

The opinion of the United States court of appeals appears at Appendix "A" to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
$$ is unpublished.
The opinion of the United States district court appears at Appendix "E"
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
JKf For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix __Jl__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
D<I is unpublished.
The opinion of the Tehama County Superior
appears at Appendix _E__to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
§(\ is unpublished.
1.

court

to

*4.

JURISDICTION
J)^For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was ..March 26, 2021
[ ] No petition for rehearing was timely filed in my case.
l^sA timely petition for rehearing was denied by the United States Court of
Appeals on the following date: April 20. 2021
, and a copy of the
order denying rehearing appears at Appendix "C"
.
|Xf An extension of time to file the petition for a writ of certiorari was granted
to and including September 17, 2021 (date) on March 19, 2020
(date)
in Application No. __ .A
. ‘{'See Appendix "G").
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

For cases from state courts:
The date on which the highest state court decided my case was ^ay 25 , 2016.
A copy of that decision appears at Appendix "F" .
[ ] A timely petition for rehearing was thereafter denied on the following date:
-----------------------------------, and a copy of the order denying rehearing
appears at Appendix
An extension of time to file the petition for a writ of certiorari was granted
to and including Sept..17 ,_21 (date) on March 19, 2020 (date) in
(See Appendix "G").
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The right of a State prisoner to seek federal habeas corpus
relief is granted in 28 U.S.C. §2254.
Pursuant to California Health & Safety Code § 11362.775

a

qualified patient - someone with a doctor's recommendation for
medical marijuana - is allowed to sell marijuana, and products
thereof, to marijuana dispensaries for medical use.
The United States Constitution's Fourth Amendment safeguards
the right of citizens against unlawful search and seizures.
The United States Constitution's Sixth Amendment guarantees
the right to effective assistance of counsel during both, trial
and during theoconvictedspersdn's .firstrappeal-as of right.
The United States Constitution's Fourteenth Amendment saf<=>gards the right of citizens to Due Process of Law, which includes
the right to a properly instructed jury, and to have the jury de­
termine whether the State has proved each element of the offense
beyond a reasonable doubt.

3.

STATEMENT OF THE CASE
Petitioner was convicted by a California jury of one count Of culti­
vating marijuana, one count of possession of marijuana for sale, one
count of possession of concentrated cannabis, one count of maintaining
a place for selling or using a controlled substance (i.e. , marijuana),
and one count of possession of child pornography. (Cal. H&S Code, §§
11358, 11359, 11357(a), 11366, and Cal. Pen. Code, § 311i. 11 (b),
respectively.)
Petitioner's trial counsel had neglected any attempt to attack
the validity of the search warrant, of which-the affiant of the affi­
davit of probable cause leading to the issuance of that warrant inten­
tionally or recklessly omitted from his affidavit significant infor­
mation, that was known to him at the time/and would have completely
eleminated all otherwise probable cause.
Petitioner's conviction for possession of child pornography was
based solely on the fact he owned the computer, specifically, the
"unallocated space" of the computer's hard drive where the unknown to
him illicit pictures were discovered. There was absolutely no evidence
of material knowledge presented during trial that connected petitioner
directly to that crime. During trial, the prosecution's computer
expert indirectly admitted as much. (See RT 431-439; appendix "H")
The trial court judge failed to give, sua sponte, a required in­
struction defining all elements of the crime; specifically, the
§ 311(e) definition as it applies to the scienter element of Cal. Pen.
Code, §311.11. During petitioner's first appeal as of right, his
state-appointed appellate codnsel'/obstinately chose not to proffer
any attack to oppose that conviction.
4.

Petitioner filed his initial Petition for Writ of Habeas Corpus
(hereafter, Petition) in the Tehama County Superior Court. He asser­
ted the following claims for relief (Pertinent part): Insufficiency
of Evidence (ground 3); Instructional Error (ground 4); Ineffective
Assistance of Trial Counsel For Failure to Challenge the Search
Warrant and Move to Suppress Evidence (ground 5); Ineffective Assistence of Appellate Counsel For Failure to Raise Meritorious Claims
on Appeal(ground 8). The last reasoned rejection of petitioner's
claims is the summary decision of the Tehama County Superior Court
on the petition for writ of habeas corpus. -(Appendix " F").
In that summary decision, the court states:
"As'for the substance of this petition, the grounds
stated in the petition are issues which could have been
stated on appeal, and could have been, or were, consid­
ered by the appellate court. Absent some justification,
the issues subject to appellate review may not be pre­
sented in a Petition for Writ of Habeas Corpus, (in re
Clark, 5 Cal. 4th at p. 765.)
The remaining issues concern the alleged incompetence
of trial and appellate attorneys. Petitioner has not
shown that counsel failed to act in a manner to be
expected of reasonable competent Attorneys acting as
diligent advocates. (Strickland, supra, 466 at pp687-688.) Secondly, petitioner did not demonstrate
that it is reasonably probable a more favorable result
would have been obtained in the absence of counsel's
failings."
After that summary decision by the'Superior Court was rendered,
Petitioner filed his petition in the California Court of Appeal, 3rd
Appellate District, and raised the same claims for relief as he did
in the Superior Court. The Court of Appeal rendered an one-line
postcard denial (i.e., "The petition for writ of habeas corpus is
denied.") (See appendix "D ")
Petitioner then filed his petition in the California Supreme
Court,, again raising the same claims for relief, and like the Court
5.

of Appeal, the State's highest Gourt also rendered an one-line post­
card denial. (See Appendix "F")
After exhausting his State remedies, Petitioner filed an appli-?
cation for a writ of habeas corpus, under 28 U.S.C. § 2254, in the
United States District Court, Eastern District of California. Therein
he raised the same claims for relief as he did in all lower courts
that considered those claims. The matter was referred to an United
States Magistrate Judge.
After the magistrate judge filed his Findings and Recommendation
(F&R), Petitioner timely filed his Objection to the F&R based on a
misapplication of material facts and the omission of material facts
important to Petitioner's factual claims of Constitutional violations.
The court conducted a de novo review of the case. Having claimed it
reviewed the entire file, the court adopted the F&R in full, denied
Petitioner's application for a writ of habeas corpus, and declined to
issue a Certificate of Appealability (COA). (See Appendix "B")
Petitioner filed a timely request for a COA, and a motion for
appointment of counsel, in the United States Court of Appeals for the
Ninth Circuit. Being undereducated, unschooled in law, and without
counsel, Petitioner did his best to explain to the Court of Appeals
that the District Court's denial of his application for a writ of
habeas corpus is based on an unreasonable determination of facts, and
the omission of facts important to his factual claims of Constitu­
tional violations.
In that filing, Petitioner demonstrated that the District Court's
F&R is in error. Petitioner had provided the Court of Appeals with
specific references to the record of the case, of which indisputably
6.

demonstrated that the District Court Judge had NOT "reviewed the
entire file," as claimed.
Petitioner had also provided the Court of Appeals with a docu­
ment he had previously tried to obtain - of which was referenced by
Respondents, and the debatable statements made therein adopted by
the District Court in its F&R - which supports petitioner's claim
of ineffective assistance of trial counsel. Nevertheless, the Court
of Appeals claimed [petitioner] had not made a substantial showing
of the denial of a constitutional right, and, subsequently, deniedi
petitioner's request for a COA and his motion for appointment of
counsel. (See appendix "A")
Petitioner immediately thereafter filed in that same court a
timely motion for rehearing en banc, and another motion for appoint­
ment of counsel. On April 20, 2021, Graber and Tallman, Circuit
Judges, ordered both motions denied. (See appendix "G")
Petitioner had then written to this Court seeking information
regarding an extention of time for which to file his petition for a
writ of certiorari. In response, this Court's Office of the Clerk
mailed petitioner a copy of the order of this Court issued March 19,
2020. That order states in pertinant part: "IT IS ORDERED that the
deadline to file any petition for a writ of certiorari due on or
after the date of this order is extended to 150 days from the date
of the lower court judgment, order denying discretionary review, or
order denying a timely petition for rehearing." (See appendix " G")
Hence, the instant petition for a writ of certiorari is timely.

7.

REASONS FOR GRANTING THE PETITION
The following factors were all present in this case:
(1)

Petitioner's trial counsel failed to conduct a thorough pretrial

discovery, review the record of all previous court proceedings, dili­
gently investigate applicable laws and possible defenses, and use the
information he could have learned to attack the validity of the search
warrant, which is a bad faith warrant. (U.S. CONST. Amends. IV and VI)(2)

The trial court failed to give, sua sponte, the jury a required

instruction defining the meaning of an essential element of the of­
fense, which resulted in an unreliable verdict. (U.S. CONST. Amend. VI)
(3)

During Petitioner's first appeal as of right, his appellate coun­

sel failed to raise meritorious issues, including an attack challeng­
ing the legality of one of the convictions, of which there exists U.S.
Supreme Court precedents establishing such an attack would not have
been futile. (U.S. CONST. Amend. IV)
(4)

The reasons given in the Superior Court's summary judgment/denial

of Petitioner's Petition for Writ of Habeas Corpus is based on an unreasonable determination of the facts, and conflicts with U.S. Supreme
Court precedents. (U.S. CONST. Amends. VI and XIV)
(5)

The United States ^District Court's Findings and Recommendations

related to its denial of Petitioner's Application for Writ of Habeas
Corpus is based on conjectures unsupported by the record and the omis­
sion of material facts in the record. (U.S. CONST. Amend. XIV)
When.Petitioner's trial counsel was appointed to this case, he
had a duty to review the record of all previous court proceedings,
conduct pretrial discovery, and deligently investigate the applicable
laws and possible defenses. As explained, below, counsel failed to
8.

preform those duties, virtually leaving Petitioner without counsel.
Significant to this issue, Petitioner had a valid doctor's recom­
mendation for medical marijuana (appendix "I"), and that the search
warrant in this csae is based on Petitioner's suspected sales of mari­
juana edibles to medical marijuana dispensaries, which pursuant to
California law is legal conduct for qualified patients, i.e., those
who have a doctor's recommendation for medical marijuana. (See Cal.
H&S Code, §11362.775, and the California Department of Justice
"Guidelines For The Security And Non-Diversion Of Marijuana Grown For
Medical Use." (hereafter, "DOJ Guidelines") The intended purpose of
the DOJ Guidelines (appendix "j") is to "help law enforcement agencies
preform their duties effectively and in accordence with California
law." (See DOJ Guidelines Instructions)
Also significant to this issue is the Statement of Expertise attached to the Affidavit of Probable Cause (appendix "k") used to procure the related search warrant. Investigator Eric Clay, affiant,
claimed therein that in-2008 he had completed 8 hours of formal train­
ing in the field of search warrants, and in 2010 he had completed 4
hours of formal training in the field of medical marijuana investi­
gations; and had written over 200 search warrants, primary for narcotics
During Investigator Clay's claimed 4 hours of training in medical
marijuana investigations, he had a duty to familiarise himself with
those DOJ Guidelines - particularly, section 111(B)(5) concerning in­
vestigations - before applying for a search warrant involving the
sales of marijuana by a qualified patient suspected of selling mari­
juana edibles only to medical marijuana dispensaries.
9.

After trial counsel was appointed to the case, he failed to fa­
miliarise himself with the record of Petitioner's previous court pro­
ceedings. Had he done so, he could have learned that Investigator Clay
was aware of Petitioner's doctor's recommendation for medical mari­
juana, before he submitted his affidavit to the magistrate judge for
consideration.
Further, had trial counsel examined that affidavit, he could have
discovered that Investigator Clay had failed to explicitly mention in
that affidavit the well-known-to-him fact that Petitioner had the said
doctor's recommendation for medical marijuana.
Given Investigator Clay's claimed training

there is no excuse

for him not to have known what the DOJ Guidelines say concerning the
sales of marijuana by qualified patients to dispensaries of marijuana
for medical use (see DOJ Guidelines, sections IV(X)(1),, (A)(2), and (B)
(4)), or what the state-taw-a-l-tows regarding such sales by qualified
patients (see Cal.H&S Code § 11362.775).
Moreover

Investigator Clay should have known what information

was expected and required to be given in an affidavit of probable
cause that is to be used to procure a search warrant regarding mari­
juana. Any reasonable person most certainly would have known that a
suspect's known doctor's recommendation for medical marijuana is the
kind of thing a Magistrate Judge would wish to know when considering
the issuance of a search warrant for marijuana; especially as it could
invalidate all otherwise probable cause claimed in the affidavit. In­
vestigator Clay's omission of that significant information from his
affidavit of probable cause was reckless and could only have been in­
tentional .
10.

Consequently, by omitting the known-to-him information that Peti­
tioner had a doctor's recommendation for medical marijuana, Investi­
gator Clay misled the magistrate judge, and that failure to notify the
magistrate judge violated Franks v. Delaware (438 U.S. 154 (1978)) by
depriving him of key information necessary to a determination of prob­
able cause. ["An affiant can mislead a magistrate by reporting less
than the total story, thereby manipulating the inferences a magistrate
will draw." - Franks, ht

]■

Having shown that relevant information was recklessly omitted
from the search warrant affidavit, Petitioner now shows that the affi­
davit, if supplemented with the omitted information, would not be suf­
ficient to support a finding of probable cause: The search-warrant af­
fidavit in the instant case (appendix "K") speaks for itself. To wit,
aside from a confidential informant's unsupported statement that he,
years earlier, seen petitioner sell marijuana to a person - and then
refused a request to attempt a controlled buy - there is nothing as­
serted in Investigator Clay's affidavit that indicates illicit activ­
ity by a person with a doctor's recommendation for medical marijuana.
In light of U.S. Supreme Court precedents, had Petitioner's trial
counsel conducted a proper pretrial discovery and therefrom examined
the affidavit of probable cause used to procure the related search
warrant, then applied his learned knowledge earnestly to attack the
deficiency in that affidavit, there is no doubt the attack would have
been successful; because as explained above, if the affidavit was supplemented with the omitted information, there would be no probable
cause. Consequently, absent the failings of counsel, it is reasonablely probable a more favorable result would have been obtained during
11.

Petitioner’s pretrial or trial proceedings. In Kimmelman v. Morrison,
477 U.S. 365 (1986), this Court held that "counsel's failure to con­
duct any pretrial discovery and file timely suppression motion was
prejudical because counsel was ignorant of law and below prevailing
professional norms." (Kimmelman, st 385.)
Petitioner was also convicted of one count of possession of child
pornography, which was based solely on the fact he owned the computer.
Specifically, the "unallocated space" of the computer's hard drive,
which is the only place where the unbeknown to him deleted illicit im­
ages were discovered; there was absolutely no credible evidence of material knowledge presented during Petitioner's trial which connected
him directly to that crime. During trial, the prosecution's computer
expert indirectly admitted as much. (See RT 431-439; appendix "H")
The prosecution's computer expert, Investigator Martin Perrone,
testified that he had conducted forensic analysis on a Hewlett Pack­
ard (HP) computer tower (RT 413) and a Dell computer tower (RT 425).
On the HP, Perrone claimed to have found 33 images of child pornogra­
phy, or suspected child pornography (RT 418). On cross-examination,
Perrone claimed that the images were found in the unallocated space of
the HP computer's hard drive (RT 434). Those images were not immedi­
ately viewable, but in the form of machine code - "if you look at the
hard drive, all you're going to see is zeros and ones, zeros-and ones."
(RT 431) - and to view them, Perrone had to reconstruct them (RT 654).
Perrone could not determine how the images got there, just that they
were present (RT 434). He also testified that he could not determine
who put the images there, or who viewed them or ordered them (RT 435).
Neither could he determine when the images got there (RT 439). There12.

fore, the only conceivable explanation for the jury's decision to con­
vict would be a lack of a proper instruction; which as explained be­
low, is what happen.
Petitioner's appellate counsel indisputably failed to diligently
examine the trial court record of the case, as was required. Had he
done so he could have discovered that when instructing the jury, the
judge had stated: "The mental state required is knowledge and further
explained in the instructions for the crimes." (RT 794) But thereaf ter

the judge failed to give that explanation for the possession of

child pornography offense (Cal. Pen. Code §311.11). Under California
law, the trial court judge was required to give the jury an instruc­
tion defining all elements of the crime - see CALCRIM 1145 Bench Notes
regarding Instructional Duty, which states: "The court has a sua
sponte duty to give an instruction defining the elements of the crime"
- specifically, the § 311(e) definition, which states: "Knowingly"
means "being aware of the character of the matter or live conduct."
(I.d., §311, subd. (e); Stats. 1969, ch. 249, §1, p. 598).
Had the omitted instruction been given, the jury would have had a
clear understanding of the meaning of the scienter element and what
was required to convict. Hence, having heard testimony? from the prose­
cution's computer expert that indirectly said there was no credible or
material evidence showing Petitioner was "aware of the character of
the matter," the jury must have been confused by the lack of proper
instruction.
When a jury has not been properly instructed concerning an essen­
tial element of the offense that has been charged, then the accused
has been deprived of his or her Sixth and Fourteenth Amendment rights
13.

to have the jury determine whether the State has proved each element
of the offense beyond a reasonable doubt. Faced with an incorrect in­
struction and a general verdict of guilty, a reviewing court simply
lacks any adequate basis for deciding whether the jury has performed
its constitutionally required function. (Citations omitted) Moreover,
the federal constitution's due process clause is suppose to protect
the accused against conviction except upon proof beyond a reasonable
doubt of every fact necessary to constitute the crime with which he
or she is charged.
This Court's holding in Osborne v. Ohio, 495 U.S. 103, is in­
structive. The Osborne Court considered the defendant's objection
that his child pornography conviction violated due process because
the trial court judge had not required the government to prove [alll
elements of the alleged crime. This Court reversed his conviction and
remand for a new trial in order to ensure that Osborne's conviction
stemmed from a finding that the State had proved each of the elements.
Upon reviewing his Appellant's Opening Brief, Petitioner dis­
covered that his appellate counsel had failed to include in that
brief, any argument - other than an argument concerning fines and
restitution - to attack the possession of child pornography conviction. In a letter to his appellate counsel, dated May 14, 2013, Peti­
tioner expressed his dissatisfaction with the brief and had asked
counsel to amend it or submit a Supplemental Brief to include an at­
tack on the conviction itself. In counsel's response letter (appendix
"L"), dated May 18, 2013, counsel states the f ollowing_(pertent part):
"Without knowledge of such files, there can be no rknowing'
-------- pos sess ion—un-d-e-r—-■ f edera 1—s-t-a-t-ue * Oa 1-r f-Q-r-n-3^a—l-a-w~,—on_the
other hand, goes much further and makes it directly illegal
14.

t0 knowingly 'possess [] or control' any 'image' of child
pornography;" "As I explained above, there was sufficient
evidence for the jury to infer that since you possessed' the
computer and had sole access thereto, you knowingly posses­
sed the images therein;" "Given that none of my arguments
touched on that count, I see no reason to' correct the brief
i n t ha t regard.,r
What is evident from a reading of the above excerpt is, appellate
counsel made no attempt at all to attack the legality of Petitioner's
conviction for possession of child pornography. In light of the above
stated facts and U.S. Supreme Court precedents, appellate counsel's
statements in his response letter dated May 18, 2013 (supra), falls
short of a reasonable explanation for his unreasonable decision not to
attack that conviction. In Harrington v. Richter, 562 U.S. 86 (2011),
this Court reasoned that "the question is not whether counsel's ac­
tions were reasonable. The question is whether there is any reasonable
argument that counsel satisfied Strickland's deferential standard."
(Harrington, 562 U.S. at 105.)
Petitioner's appellate counsel indisputably provided him with
ineffective assistance during his first appeal as of right, because
counsel's representation of the issue amounted to no representation at
all. Consequently, counsel's inaction fell below "an objective stand­
ard of reasonableness.. .under prevailing norms/' and^ "there is a rea­
sonable probability that, but for counsel's unprofessional errors, the
result of the [appeal] proceeding would have been different." (Strick­
land v. Washington, 466 U.S. 668, 688 (1984)).
When Petitioner raised the above stated issues in his initial
petition for writ of habeas corpus, filed in the Superior Court of
conviction(s), that court reasoned in its summary judgment/denial of
the petition that they were issues "which could have been stated on
15.

appeal, andicould have been, or were, considered by the appellate
court." And, "absent some justification, issues subject to appellate
review may not be presented in a Petition for Writ of Habeas Corpus."
In the following paragraph, that court states: "The remaining issues
concern the alleged incompetence of trial and appellate counsel. Peti­
tioner has not shown that counsel failed to act in a manner to be ex­
pected of reasonable competent attorneys acting as diligent advocates.
Secondly, Petitioner did not demonstrate that it is reasonablely prob­
able a more favorable result would have been obtained in the absence
of counsel's failings.'!
The Superior Court's summary judgment/denial of the above stated
issues is not supported by facts or the record. Petitioner had in fact
asserted in that petition that:.<I) counsel 'was ineffective for failing
to attack the validity of the deficient affidavit of probable cause
used to procure the related search-warrant, and that the issue was not
raised on direct appeal because of ineffective assistance of appellate
counsel (see petition grounds 5 and 8); and (2), that the evidence
presented at trial is insufficient to support Petitioner's conviction
pursuant to the text of Cal. Pen. Code § 311.11 (possession of child
pornography), because there was absolutely no proof or credible evi­
dence that Petitioner had material knowledge of the unlawful images
found in the unallocated space of his computer's hard drive, and that
appellate counsel was ineffective for failing to raise the issue on
direct appeal, (see petition grounds 3 and 8). Further, in that peti­
tion, Petitioner had also demonstrated the harm caused by both, trial
and appellate counsel, regarding the issues, as well as the probability that a more favorable result would have been obtained in the ab16.

sence of counsel's failings, (see petition grounds 3, 5, and 8).?
When Petitioner raised the above stated issues via a petition for
writ of habeas corpus, filed in the California Court of Appeal, Third
Appellate District, that court rendered an one-line postcard denial
(i.e., "The Petition for Writ of Habeas Corpus is denied.") . Peti­
tioner subsequently filed his petition for writ of habeas corpus in
the California Supreme Court, which included the same issues as those
filed in the lower courts. That court - the highest State court that
considered the issues - ha:d also rendered an one-line postcard denial.
Petitioner then raised the above stated issues before the United
States District Court

Eastern District of California, via a Appli­

cation for a Writ of Habeas Corpus under 28 U.S.C. § 2254. A Magi­
strate Judge was assigned to the case. The magistrate judge rendered a
langthy Findings and Recommendations (F&R) that ultimately resulted
in the denial of the habeas corpus petition. As explained below, the
magistrate's F&R (in pertinent part) is based on conjectures unsup­
ported by the record and the omission of material facts in the recordr
thereby further violating Petitioner's right to due process>
Petitioner refutes the District Court's logic regarding trial
counsel's failure to challenge the validity of the search warrant,
specifically, the affidavit used to procure that warrant. The district
court's analysis of the issue - F&R at pp. 42:28-43:17 - relies main­
ly on the California Attorney General's fallacious assertion that "a
reasonable inference can be made from the People's Informal Response
to Petitioner's Request for Writ of Habeas Corpus, filed with the Te­
hama County Superior Court, that Investigator Clay did in fact include
Petitioner's status as a qualified patient in his affidavit." The pas17.

sage in question reads as follows:
[Petitioner's] principal complaint appears to be that Inves­
tigator Clay failed to mention his status as a medical mari­
juana recommendation holder. A reading of the warrant makes
clear that Investigator Clay implicitly acknowledges Peti­
tioner's status as of the fall of 2007. "At that time, your
affiant observed marijuana plants growing in a fenced area
behind his residence. [Petitioner] refused to allow agents
to look inside his residence. At that time there was insuf­
ficient evidence to prove [petitioner] was outside the in­
tent of the medical marijuana laws in California and in vio­
lation of the law." (Search warrant Statement of Probable
Cause, p. 6, lines 9-12.)
The F&R, at p. 44:9-14, concluded that "it would have been fu­
tile for trial counsel to challenge the search warrant on the basis
that Investigator Clay failed to advise the reviewing magistrate that
[Petitioner] was a qualified patient because the affidavit stated as
much;" and that "the balance of petitioner's argument requires the
court to adopt his erroneous interpretation of the law partaining to
marijuana used for medical purposes." Further concluding that "because
the motion to suppress would not have been successful, petitioner has
failed to show prejudice."
Petitioner disagrees with the District Court's denial and adopted
analytical assessment of the issue, because it is illogical and fails
to comprehend and/or except what this state's medical marijuana laws
and the .DOJ Guidelines legally allow; and failed to consider the en­
tire record of the case. Specifically, a statement in the record made
by C. Todd Bottke

the magistrate judge who issued the deficient

search warrant in this case.
During Petitioner's preliminary hearing, an issue was brought up
concering an unrelated compliancy check at Petitioner's residence in
—the—f-a-1-1-—of—200 7-.—Du r-i-n-g—t hat—hearing,—d-ud-g-e—B ott k e—ha-d—made—a—s-t-a-t-e-—ment unrelated to the said search warrant, but nevertheless pertinet
18.

because it involves that compliancy check, Investigator Clay's evalu­
ation of petitioner's status as a medical marijuana patient, and Judge
Bottke's explict mind-set as it relates to the time-line between the
said 2007 incident and when he issued that deficient search warrant.The explicit statement made by Judge Bottke reads as follows:
"THE COURT: Well, Mr. Burg, now to the extent that that was
in 2007 and these circumstances apparently took place in
2011, potentially up to four years latter....I don't find
that that information at that point being almost four years
old is relevant." (RT 117:9-14;
Petitioner asserts that had Judge Bottke found the said time-line
relevant, further testimony could have been unobjectionably elicited
from Investigator Clay to demonstrate that his presence at Petition­
er's residence, during the said fall of 2007 incident, was meant to harrass Petitioner for a conviction he had not been on parole for since
May of 2001; and to emphasize that the deficiency in Investigator
Clay's affidavit of probable cause was intentional5 and that it was
Clay's last chance at a pay-back - for Petitioner's unyielding atti­
tude during the said 2007 incident - a week before transferring his
job to another county. (It should be noted that Petitioner had a hired
attorney during that preliminary hearing.)
As for the District Court's apparent bias and unfounded conclu­
sion that "the balance of petitioner's argument requires the court to
adopt his erroneous interpetation of the law partaining to marijuana
used for medical purposes," well, that statement is fallacious and es­
tablishes that the district court had failed to investigate what Cali­
fornia's medical marijuana laws and the related DOJ Guidelines expli­
citly allows. A copy of the DOJ Guidelines is included herewith as ap­
pendix "j", and Cal.-H&S Code § 11362.775 reads as follows:
19.

"Qualified patients, persons with valid identification
cards, and the designated primary caregiver of qualified
patients and persons with identification cards, who asso­
ciate within the State of California in order to collec­
tively or cooperatively to cultivate marijuana for medical
purposes, shall not solely on the basis of that fact be
subjected to state criminal sanctions under Section ^1357,
11358, 11359, 11360, 11366, 11366,5, or 11570."
As relevant here

Petitioner was a qualified patient who only as­

sociated within the State of California in order collectively and cooperatively to cultivate marijuana for medical purposes, and was convicted of Cal.H&S Code §§ 11357, 11358, 11359, and 11366. .
By the District Court's reliance on the Superior Court's fallacy
concerning this issue, its denial of the issue is erroneous because it
is based on a misinterpetation and misapplication of state law, which
resulted insan unreasonable determination of the facts. Moreover, the
denial of the issue by all the lower courts that claimed to have considered the issue, which relied on that same fallacy by the Superior
Court, besed their decision on an erroneous determinatio.h_.Qf:.the facts
and law.
Regarding ther.District Court's resolution of Petitioner's conviction
for possession of child pornography: Petitioner's petition in the dis­
trict court included an argument that, in People v. Petrovic.5 224 Cal.
App. 4th 1510 (2014), the California Court of Appeal acknowledged the
Tecklenburg (169 Cal. App. 4th 1402) holding, which was in response to
an order from the California Supreme Court that it consider the stand­
ard in the Kuchinski (469 F. 3d 853) case. The Kuchinski Court held
that:
"Where a defendant lacks knowledge about the cache file,
and concomitantly lacks access to and control over the
■f'ii.~e~s~> rt~i~s~n'ot—proper—to—charg-e~-hi-rrr—wi-th—pos-ses-si-on—a-ndcontrol of the [illicit] images located in those files,
20.

,>
■vJ

without some other indication of dominion and control over
the images."
The Tecklenburg Court concluded that the Kuchinski standard does
not apply to section 311.11 convictions. However, the facts in the
Tecklenburg case were NOT present in Petitioner's case, to wit, there
was no admission or credible evidence indicating Petitioner had mate­
rial knowledge of, or dominion and control over, the illicit images
found on his computer's hard-drive; not in the temporary internet file,
cache file, history file, brower cookie file, or any other file acces­
sible without the use of sophisticated computer software - of which
Petitioner's computer was not equipped. >
The F&R analysis, at p. 35:22-24, concluded that a conviction
for possession or control of child pornography does not require any
showing that defendant had the ability to access, view, manipulate or
modify the images that were on his computer. (Citing People v. Mahoney,
220 Cal. App. 4th 781, 795 (2013)), And the F&R analysis, at p. 36:1-21,
further states;that:
"Petitioner places significance on the differences he per­
ceives between the facts in People v. Tecklenburg, 169 Cal.
App. 4th 1402 (2009), and his case, arguing it does not ap­
ply and that this court should instead apply the holding in
United States v^ Flyer, 633 F. 3d 911 (9th Cir. 2011) . '
"The narrow question of law presented in Tecklenburg was
whether the defendant could be convicted of knowingly pos­
sessing pornography images of children contained in his
computer’s 'temporary internet files' without evidence he
knew that the images had been stored there. Ticklenburg, 169
Cal. App. 4th at 1414-15.'
■ >'i

"Here, the prosecution was not required to present evidence
that Petitioner was aware that he possessed the matter, re­
presentation of information, data, or images containing the
child pornography in order to prove a violation of section
311.11(a) of the California Penal Code."
That analogy, subsequently adoped by the District Court Judge, is
21.

o
V

erroneous and conflicts with what due process requires. It also sup­
ports Petitioner's claim made herein regarding the omitted jury in­
struction. As shown above, the analysis clearly states that "the prose­
cution was not required to present evidence that Petitioner was 'aware
that he possessed the matter...or images' in order to prove a viola­
tion of section 311.11(a) of the California Penal Code." However, the
text of Cal. Pen. Code §311.11 clearly includes the word "knowingly,"
which is an essential element of ,the charge that must be proven. And,
as previously asseverated herein, the omitted instruction defining the
word "knowingly" means "'being aware of* the character of the matter."
(I.d.

Cal. Pen. Code, § 311(e)). And as previously shown herein

there

is no credible or material evidence indicating Petitioner was "aware
of the character of the matter...or images" located in the unallocated
space of his computer's hard-drive.
.j

The District Court's bias resolution of the issue, as shown above
asserts what showings are not required, but fails to acknowledge what
showings are required; to wit, credible material evidence showing that
Petitioner "knowingly" possessed the illicit images located in the unallocated space of his computer's hard-drive. It also requires the
trial court to give, sua sponte, a jury instruction pursuant to Cal.
Pen. Code § 311(e) defining the meaning of the word "knowingly" as it
applies to the text of Cal. Pen. Code § 311.11, which is the instruc­
tion the trial court judge failed to give the jury. (Please take jun
dicial notice of the holding in Osborne v. Ohio, supra, 495 U.S. 103).
Further, the federal constitution's due process cluse requires the
prosecution to prove every element of the charged offense beyond a
reasonable doubt. (Citation omitted). Moreover, with the necessary
22.

Vs

V

instruction omitted, "no rational trier of fact" could have found the
essential element of the charged offense.
In an age where personal computers are often sold used, and when
connected to the internet (perhaps wirelessly) are subject to receive
unwanted and unbeknown data and other matter caused by computer mal­
ware and/or computer hackers, a computer owner should not be penalized
for the unbeknown contents of the "unallocated space" of that computer
- of which is not accessable to the user without the use of a sophisti­
cated computer software program - without at least some credible corroboration of material knowledge connecting him or her directly to the
charged offense.
Considering the foregoing scenario, an exercise of this Court's
Supervisory Power is requested to dictate an universal standard for
all states to obey regarding ownership and the element of scienter as
they apply to the unbeknown contents of the "unallocated space" of a
computer's hard-drive; that of which was at sometime connected to the
internet and subject to computer malware and/or accessed by others including computer hackers. Hence, an universal standard by this Court
is needed to ensure U.S. citizens are not punished based solely on the
ownership of a computer.
Regarding the District Court's resolution of Petitioner's claim of
ineffective assistance of appellate counsel: The district court's F&R,
at p. 51:21-27, acknowleges Petitioner's argument that "appellate coun­
sel failed to raise meritorious issues on direct appeal that have the
potential for success, and there is no strategic or tactical reason
not to have raised them," but subsequently found that "the California
Supreme Court's denial of those claims was not unreasonable or contrary
23.

v‘

to Supreme Court precedent, nor did any involve an unreasonable deter­
mination of facts." The issues referred to include those previously
presented herein.
In the F&R, at p. 52:10-17

the district court concluded that

"appellate counsel's decision to press only issues on appeal that he
believed, in his professional judgment, had more merit that those sug­
gested by petitioner was 'within the range of competence demanded of
attorneys in criminal cases.

I It

Further concluding, r.ibid, that "there

is no evidence in the record that counsel's investigation of the is­
sues was incomplete, that a more thorough investigation would have re­
vealed a meritorious issue on appeal, or that appellate counsel's de­
cision not to raise these issues fell below an objective standard of
reasonableness."
Petitioner's refutation of the district court's erroneous conclu­
sion of this issue has previously been expressed as it applies respec­
tively to the issues presented herein. But to expand upon appellate
counsel's unprofessional representation, it is apparent the merits of
an issue had no bearing on counsel's judgment to press only the less
significant issues on appeal, rather than meritorious paramount issues
of which may haveiresulted in a reversal of the conviction(s). E.g.,
in spite of U.S. Supreme Court precedents, appellate counsel made no
attempt to, and had even obstinately refused to, attack Petitioner's
conviction for possession of child pornography.
As previously explained herein, Petitioner's conviction for pos­
session of child pornography could have been and should have been at. tacked on direct appeal, specifically on the basis that the trial
court judge had failed to.give

sua sponte, an essential and required
24.

jury instruction. Pursuant to this Court's ruling in Osborne v. Ohio,
supra, 495 U.S. 103, such an attack would not have been futile. Hence,
there is no reasonable explanation for appellate counsel's failure,
and refusal, to attack the possession of child pornography conviction.
"To perform as a constitutionally effective advocate, appellate coun­
sel must raise all assignments of error that arguably may result in.a
reversal or modification of judgment." (Douglas v. California (1963)
372 U.S. 353.)
Therefore, the District Court's fallacious assertion that "there
is no evidence in the record that counsel's investigation of the is­
sues was incomplete, that a more thorough investigation would have re­
vealed a meritorious issue on appeal, or that appellate counsel's de­
cision not to raise these issues fell below an objective standard of
reasonableness," is groundless.
The Fourteenth Amendment Due Process Clause guarentees the right
to effective assistance of counsel on a first appeal as of right.
Evitts v. Lucey (1985) 469 U.S. 387, 396-99; see also Yarborough v.
Gentry (2003) 540 U.S. 1, 5; Padilla v. Ky (2010) 130 S. Ct. 1473, 1480
-81. And the Sixth Amendment right to counsel is the right to effec-.,
tive counsel. Evitts v. Lucey, supra, 469 U.S. 387, 395-96; Strick­
land v. Washington, supra, 466 U.S. 668, 686; Cuyler v. Sullivan (1980)
466 U.S. 335, 344; McMann v. Richardson (1970) 397 U.S. 759, 771 n. 14.
After finding the F&R in error, Petitioner timely moved the dis­
trict court for a de novo review based on the magistrate's misappli­
cation of material facts and the omission of material facts important
to Petitioner's claims of constitutional violations. The de novo review
was granted, but the district court judge assigned to the case subse25.

'«/

quently denied the petition, as well as Petitioner's request for a
Certificate of Appealability (COA) and his motion for appointment of
counsel.
In sum, the United States District Court's resolution of the is­
sues presented herein is based on an unreasonable determination ofuthe
facts, and is contrary to, and/or involved an unreasonable application
of, clearly established federal law, as determined by the United States
Supreme Court. Consequently, it cannot be said Petitioner received a
fair or unbias hearing of the issues, in the district court or any of
the lower courts that claimed to have reviewed the entire record of
the case.
Petitioner filed a timely request for a COA in the United States
Court of Appeals, for the Ninth Circuit. That request was denied, the
court claiming that [petitioner] had not made a "substantial showing
of the denial of a constitutional right." Petitioner filed in that
same court a timely motion for rehearing. That motion was also denied,
as was ;his motion for appointment of counsel.

26.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

August 24, 2021

27.

